<html>
<title> - Systematic Attacks on Journalists in Russia and Other Post-Soviet States</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




115 Congress                                                         
1st Session                                                             Printed for the use of the                      
                                                   Commission on Security and Cooperation in Europe
______________________________________________________________________________________________________



                                                         
 
        Systematic Attacks on Journalists in Russia and Other Post-Soviet States









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                          October 4, 2017





                                     Joint Briefing of the 
                                     
                        Comission on Security and Cooperation in Europe  
                        
                          and the House Freedom of the Press Caucus
________________________________________________________________________________________________

                                        Washington: 2017
                                        
                                        




                  Commission on Security and Cooperation in Europe
                         234 Ford House Office Building
                              Washington, DC 20515
                                  202-225-1901
                             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="45263626200528242c296b2d2a3036206b222a33">[email&#160;protected]</a>
                             http://www.csce.gov
                             @HelsinkiComm
                             
                             
                             
                             
                             
                             

                       Legislative Branch Commissioners
                                       

              HOUSE                                          SENATE
CHRISTOPHER H. SMITH, New Jersey                    ROGER WICKER, Mississippi,
          Co-Chairman                                Chairman
ALCEE L. HASTINGS, Florida                         BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                        JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                          CORY GARDNER, Colorado
STEVE COHEN, Tennessee                             MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                     JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                           THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                          TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                              SHELDON WHITEHOUSE, Rhode Island
                        
          
            
          
          
                       Executive Branch Commissioners
          
                           DEPARTMENT OF STATE                         
                           DEPARTMENT OF DEFENSE                        
                           DEPARTMEMT OF COMMERCE
                        
                                 (II)
          
          

                                        







 ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


 ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                            (III)


 Systematic Attacks on Journalists in Russia and Other Post-Soviet States
 
 
                            ________________
                            
                            October 4, 2017


                                                                              Page
                              PARTICIPANTS

    Hon. Steve Chabot, Co-Chair, House Freedom of the Press Caucus ............1

    Hon. Adam Schiff, Co-Chair, House Freedom of the Press Caucus .............6

    Jordan Warlick, Staff Associate, Commission on Security and 
    Cooperation in Europe .....................................................2

    Thomas Kent, President and CEO, Radio Free Europe/Radio Liberty ...........3
    
    Amanda Bennett, Director, Voice of America ................................5

    Nina Ognianova, Europe and Central Asia Program Coordinator, 
    Committee to Protect Journalists ..........................................8

    Karina Orlova, Washington, D.C. Correspondent, Echo of Moscow ............13
    

                                APPENDIX
                                

    Prepared Statement of Nina Ognianova .....................................23
    
    
    
                                       (IV)







Systematic Attacks on Journalists in Russia and Other Post-Soviet States
                              ----------                              

                            October 4, 2017


          Commission on Security and Cooperation in Europe
          
                         Washington, DC




    The briefing was held at 3:09 p.m. in Room SVC-208, Senate Visitors 
Center, Washington, DC, Hon. Steve Chabot, Co-Chair, House Freedom of 
the Press Caucus, moderating.
    Panelists present: Hon. Steve Chabot, Co-Chair, House Freedom of 
the Press Caucus; Hon. Adam Schiff, Co-Chair, House Freedom of the 
Press Caucus; Jordan Warlick, Staff Associate, Commission on Security 
and Cooperation in Europe; Thomas Kent, President and CEO, Radio Free 
Europe/Radio Liberty; Amanda Bennett, Director, Voice of America; Nina 
Ognianova, Europe and Central Asia Program Coordinator, Committee to 
Protect Journalists; and Karina Orlova, Washington, D.C. Correspondent, 
Echo of Moscow.

    Mr. Chabot. Things don't work as well here on the Senate side, so I 
couldn't get the mic to work. [Laughter.] But good afternoon. On behalf 
of the House Freedom of the Press Caucus, I want to thank the Helsinki 
Commission, all of you, for being here. And I want to thank Congressman 
Schiff as well. He and I restarted, as you may know, the caucus to draw 
attention to international press freedom because a free and independent 
press is a key ingredient to any functioning democracy. We must 
continue to draw attention to this vital freedom around the globe.
    Our friends at Voice of America, and at the Broadcasting Board of 
Governors, the BBG, know well the importance of a free and independent 
press in Russia, and throughout Eastern Europe for that matter. This is 
a timely discussion. Congressman Schiff and I strongly agree that a 
free and independent press in Russia and Eastern Europe is more 
important now than ever. It's absolutely necessary to counter an 
increasingly bold Vladimir Putin, who is attempting to undermine the 
fourth estate.
    Since the collapse of the Soviet Union, many of the post-Soviet 
states have embraced democracy, and with that, a free press. It's the 
job of journalists to speak truth to power and hold governments 
accountable to democratic ideals. As we all know, Mr. Putin is hellbent 
on destroying the independent press. Why? Because it is a threat to his 
very rule. And there's no question that Putin is bound and determined 
to extend his power and influence to many now-free countries that were 
once under the yoke of the former Soviet Union.
    Looking further than Russia's actions in Ukraine, which demonstrate 
that Putin will stop at nothing to reconstitute the former Russian 
empire, destroying the free press is an integral part of his plan. 
Putin has never really accepted or respected the sovereignty of our 
ally Ukraine. After unilaterally invading Crimea, Putin held a staged 
referendum to claim that Crimea wanted to leave Ukraine and become part 
of Russia. Russian propaganda played a significant role in the 
annexation, and still continues to do so.
    More generally, Putin's propaganda machine provides cover for other 
Russian sympathizers throughout Eastern Europe. His continued 
manipulation of the press only leads to increased propaganda that is 
used to give credibility to his allies throughout the region. And in 
Russia itself, pro-Moscow voices are often the same voices that rely on 
corruption and aim to silence dissent. That's why a strong, independent 
and free press is a natural obstacle to Putin's grand strategy.
    We must continue to support efforts by the BBG and VOA, the Voice 
of America, to provide a balanced and comprehensive platform in the 
region. By representing American democracy to the very populations 
Putin aims to control, we are able to provide tools for independent 
thought. This further cultivates support for independent journalism. 
I'm pleased to see that programs like Radio Free Europe and Radio 
Liberty are being given renewed attention by American policymakers like 
myself. They broadcast in 28 languages to countries throughout Eastern 
Europe, Russia and other distant parts of the globe. They give 
independent journalists a voice where it's needed most.
    These are precisely the kinds of broadcasters Western democracy 
needs if we are to effectively halt Putin's ambitions. Putin must not 
be allowed to win the battle of ideas in Eastern Europe. And he should 
not be allowed to quash dissent at home. That's why I, along with my 
colleagues in the House, continue to voice our support for a free and 
independent press, both in Eastern Europe and in Russia.
    We have an excellent panel here today to help us better understand 
the situation on the ground and the challenges that journalists face in 
Russia and throughout the former Soviet Union. I hope our panelists can 
shed further light on this situation and provide some potential 
solutions. And as I said, it is certainly a distinguished panel here 
this afternoon. I'm sure that a whole lot will be learned by an awful 
lot of people. And as I said, this is a very critical matter and it 
couldn't be more timely.
    So thank you very much, panel, for being here. And thank you all 
for being here. [Applause.]
    Ms. Warlick. And thank you, Representative Chabot.
    To those in attendance, welcome and thank you for coming to this 
joint briefing of the Helsinki Commission and the House Freedom of the 
Press Caucus on ``Attacks Against Journalists in Russia and Other Post-
Soviet States.'' My name is Jordan Warlick, and I'm responsible for 
media freedom issues at the Helsinki Commission. As some of you may 
know, the Helsinki Commission was created to monitor compliance with 
the principles of democracy and human rights enshrined in the Helsinki 
Final Act of 1975.
    When authoritarian regimes systematically attack and silence the 
press, they violate these commitments. These kinds of attacks take many 
forms--online and verbal harassment, physical assault, politically 
motivated imprisonment, and even murder. There have been some 
particularly disturbing cases so far this year. Russian journalist 
Yulia Latynina fled Moscow after several attacks on her home. Well-
known Azerbaijani blogger Mehman Huseynov was jailed and severely 
beaten in prison. Dmitry Popkov and Nikolai Andrushchenko were 
tragically murdered for their work as journalists in Russia. However, 
for the few well-known cases that garner attention, there are many more 
lesser-known victims.
    A free press is an indispensable part of democracy. It keeps 
citizens informed and holds governments accountable. I look forward to 
a discussion of the pressures journalists experience in the region, why 
the situation has deteriorated, and what can be done to reverse these 
troubling trends. We are grateful to have such distinguished panelists 
with us here today, and we look forward to your insights on this 
subject.
    First, we'll hear from Tom Kent, president of Radio Free Europe/
Radio Liberty, who joins us all the way from RFE/RL's headquarters in 
Prague. Before RFE/RL, Tom had an impressive 40-year career with the 
Associated Press, where he served in roles including Moscow bureau 
chief, international editor, world services editor, and standards 
editor.
    Following Tom, we have Amanda Bennett, director at Voice of 
America. Amanda is a Pulitzer Prize-winning journalist, with experience 
at a number of publications, including most recently as executive 
editor of Bloomberg News and editor of the Philadelphia Inquirer. As 
director of VOA and a seasoned journalist herself, Amanda's very well 
placed to discuss the dangers that confront the media.
    Next we'll hear from Nina Ognianova, Europe and Central Asia 
program coordinator at the Committee to Protect Journalists [CJP]. 
Leading advocacy work and fact-finding missions at CJP for 15 years, 
Nina has exceptional regional expertise that will be very valuable to 
our discussion today.
    Finally, Karina Orlova will tell us her story. She is the 
Washington, D.C. correspondent for Echo of Moscow, a regular 
contributor to The American Interest, and has first-hand experience of 
the dangers journalists face in the region.
    We will conclude with a question and answer session. In addition to 
questions from the audience, we may also be taking questions from 
Facebook Live. And if you're tweeting at this event, please also use 
our handle, #HelsinkiCommission and #InternationalPressFreedom.
    I'd like to turn now to our first panelist, Tom Kent, who will 
provide us with an overview of the situation for journalists in Russia 
and the region, and the particular threats that RFE/RL journalists 
face.
    Tom, when you're ready.
    Mr. Kent. Thank you, Jordan. Good afternoon, everyone. Certainly, 
we welcome the reestablishment of the House Freedom of the Press Caucus 
and the willingness of Representative Schiff and Chabot to serve as co-
chairs. And we thank the Helsinki Commission for its participation in 
today's events.
    Fair and representative societies simply cannot exist without 
independent fact-based journalism. We do our best in difficult 
circumstances. I am President and CEO of Radio Free Europe/Radio 
Liberty, a private news corporation funded by Congress. We do local 
news and investigative reporting in 23 countries. We're based in 
Prague, right up against the time zones and the nations we serve--the 
former Soviet Union, the Balkans, and Iran, Afghanistan, and Pakistan. 
We work in 25 languages, on television, radio, the web, and social 
networks.
    The law requires RFE/RL to provide professional, independent news 
reporting. At the same time, we promote freedom of expression, clean 
government, and tolerance. These are universal values. Even 
dictatorships acknowledge them, if only on paper. When societies are 
open and just, when journalism is honest, the world benefits from more 
understanding and less conflict. It follows that the rights and work of 
journalists reporting the news must be respected, yet this is far from 
the case. Perhaps because our reporters focus so much on human rights 
and the scourges of corruption and extremism, RFE/RL's staff is under 
pressure every day.
    Our staff faces physical attack, threats to themselves and their 
relatives, detention and imprisonment, and unrelenting assault from 
government and extremist media. Yet we continue to provide something 
our audience obviously wants. In the first half of this year, visits to 
our websites were up 13 percent from the year before. People watched 
our videos 380 million times on YouTube alone, almost twice as many as 
in 2016. Much of our work is in the Russian-speaking world. Our 
audiences there want news beyond what comes from Kremlin-controlled 
media.
    We look for viewers who favor clean government, economic freedom, 
and better relations with the West. To this audience, we offered a 
dozen different Russian-language news brands. They include the new 
Current Time television and digital network, an RFE/RL project produced 
in cooperation with VOA, 24/7 all in Russian. RFE/RL offers separate 
news services for countries and regions throughout the post-Soviet 
space not only in Russian, but with the authenticity of local languages 
like Armenian, Georgian, Tajik and Kyrgyz, to name a few.
    Inside Russia, we face severe limitations in TV and radio 
distribution. This, despite the fact that Russian media distribute 
freely in the United States. Still, millions of Russians follow our 
content. Apparently, the authorities recognize our impact. We face 
growing obstacles to our work. Our correspondents inside Russia have 
been beaten and harassed. In Russian-controlled Crimea, our contributor 
Mykola Semena was convicted just last week of treason-like charges and 
banned from public activity for three years. In the Donbas region of 
Ukraine, pro-Russian separatists are holding our contributor Stanislav 
Aseyev, accusing him of espionage.
    Moscow Television on some days accuses us of being master spies and 
propagandists, on others of being boring and incompetent. Here's one 
blast at us from Russian political commentator Dmitry Kiselyov.
    [Video clip in Russian.]
    Mr. Kent. And yet, despite the pressures, we continue to operate 
with a bureau in Moscow and correspondents across the country. We have 
been through hard times before. We trust we will endure even through 
the latest trough in U.S.-Russian relations. It's important to note 
that attacks on our work in post-Soviet nations are hardly limited to 
Russia. In Ukraine, our investigative TV program, called ``Schemes,'' 
regularly reports on corruption. Last month, security agents attacked 
``Schemes'' reporters covering a lavish wedding celebration, a private 
event that appeared to make use of government resources. In a clip 
we'll show you, you can hear our reporter, Mykhailo Tkach, the man with 
the cellphone, shouting ``shcho ty robysh''--``what are you doing''--as 
one of the agents forces our cameraman, Borys Trotsenko, to the ground.
    [A video clip in Ukrainian is shown.]
    Mr. Kent. Trotsenko got a concussion in that.
    Also, in post-Soviet countries our contributor, Saparmamed 
Nepeskuliev, is in his third year of imprisonment in Turkmenistan for 
his reporting. RFE/RL is suing Azerbaijan in the European Court of 
Human Rights in a case stemming from the forcible closure of our bureau 
there in 2014. There are many other abuses of our bureaus and our 
people.
    Despite the many problems we face, we accomplish a lot. In every 
country across our geographies, our local staff and contributors take 
substantial risks, covering the news for their fellow citizens through 
us. They believe in press and personal freedom. They know their work 
has impact. I thank you for your support.
    Ms. Warlick. Thank you very much, Tom, for your presentation and 
those powerful videos. We very much admire the work that RFE/RL does in 
that part of the world.
    Amanda.
    Ms. Bennett. Thank you, Jordan, and thank you to Representatives 
Schiff and Chabot and the Freedom of the Press Caucus for convening 
this briefing along with the Helsinki Commission.
    I'd like to begin by sharing the experience of VOA journalist 
Fatima Tlisova, who in 2007 was compelled to leave Russia. She had 
faced harassment, intimidation and imprisonment while covering 
terrorist attacks, hostage situations, corruption and abuse of power by 
the military and police in Chechnya and the Caucasus region.
    Fatima Tlisova. [From video.] I see my job as a mission. The 
Russian security attack physically. One of the instances, at 2 a.m. I 
woke up. I was swelling. I was bigger than my father. And I thought, 
it's probably poison. I was afraid to go to the local hospital. I woke 
up my kids and asked the taxi driver to take me to my parent's village. 
My mom was a doctor. And I knew that if I got to her alive I'm going to 
survive. So as you see, I'm alive.
    Ms. Bennett. So why am I showing you a 10-year-old experience? 
Because it's happening again. As Jordan mentioned, Fatima's story 
sounds eerily familiar to the story of Russian journalist Yulia 
Latynina, who recently wrote in The Moscow Times that she was forced to 
flee Russia because the Kremlin is losing control over the violence. In 
July, a strange gas was released into her home. The police watched her. 
Her car was set on fire. And this came a year after an unknown 
assailant threw feces on her, another common tactic against independent 
journalists. We are also seeing the Russian Government tighten access 
to reliable information and crack down on internet freedoms. In August, 
Putin banned online messaging, as well as the VPNs commonly used to 
circumvent censorship.
    It is in this environment that we--the Voice of America--operate. 
Our mandate from Congress is to bring America's story to the world, to 
explain U.S. policies, and to foster responsible discussion with 
accurate, objective, and comprehensive journalism. Like RFE, we are 100 
percent funded by Congress and 100 percent independent. Along with RFE/
RL and the three other networks, we comprise international media under 
the Broadcasting Board of Governors. Ours is a mission to promote 
freedom and democracy. VOA is the largest network for BBG, and it 
broadcasts in 47 languages around the world, reaching an estimated 234 
million people on a weekly basis. In Russia and the post-Soviet space, 
we broadcast in 11 languages, including Russian and English. This past 
year, we had the biggest audience increase in our history in radio, TV, 
web, digital media.
    So VOA's Russian Service has been in operation since 1947.
    Ms. Warlick. Excuse me, Amanda. Apologies for interrupting. I'd 
like to take a moment to welcome Representative Schiff to the briefing 
and give him the floor to make some remarks.
    Mr. Schiff. Thank you very much. Appreciate the opportunity to join 
you today. And I want to say thank you to the Helsinki Commission for 
partnering with the Press Freedom Caucus to host this important event 
on threats to press freedom in Russia and post-Soviet states. I'll be 
very brief, so that we can get back to hearing from our distinguished 
panel. But I'd just like to say a few words on why I think this topic 
is so timely and important.
    Every day journalists risk their lives to bring news and 
information to people around the world. They're often the first to 
report at the frontlines of conflict zones, the first to uncover 
corruption, and the first to suffer the backlash when powerful forces 
would rather keep something hidden. They often take great risk to do 
their jobs, facing imprisonment, intimidation, or worse from regimes 
and other powerful forces that do not want their stories told.
    When I founded the International Press Freedom Caucus, along with 
my colleague Mike Pence, in 2006, one of our first actions was writing 
to Vladimir Putin in response to the murder of Anna Politkovskaya, the 
Russian journalist who reported on the war in Chechnya at great 
personal risk, and who was ultimately murdered in her apartment 
building. At the time, we noted that she was only the latest Russian 
journalist to meet a violent end, and to ask that the Russian 
Government investigate her murder and punish those responsible.
    It will come as no surprise to any of you that few observers 
believe her case was truly investigated and those who ordered or 
acceded her assassination were held to account. And as only one of six 
journalists working for the independent Russian newspaper Novaya Gazeta 
murdered in recent years. This is the same newspaper which earlier this 
year broke the story of Chechnya's anti-gay campaign, in which gay men 
were detained and tortured to death. As our panelists have described, 
the environment for free media in Russia has only degraded since Mr. 
Pence and I formed this caucus.
    Television consists largely of state-run propaganda outlets, while 
independent media and investigative reporting is systematically 
suppressed. For instance, when RBC Media Group published articles based 
on the Panama Papers leaks, which detailed aspects of the finances of 
powerful figures close to Putin, top editors were dismissed and 
replaced by individuals from state-run outlets. This is the norm in 
Putin's Russia, and, regrettably, the same approach to press freedom is 
common in many other post-Soviet states.
    I have repeatedly highlighted the case of Saparmamed Nepeskuliev, a 
journalist in Turkmenistan, who remains imprisoned because of his 
courage reporting from that country, one of the worst in the world for 
press freedom. I'm proud that the Press Freedom Caucus continues its 
bipartisan work with Congressman Steve Chabot of Ohio serving with me 
as co-chair. Unfortunately, there remain far too many nations in which 
press freedom and the safety and well-being of journalists is under 
daily threat. Too many journalists are jailed for reporting the truth 
or telling stories that the powerful or violent would rather keep in 
the shadows.
    And I want to thank, again, you all for being here, and the 
wonderful panel that's been assembled to share their important work and 
research. And I thank you. [Applause.]
    Ms. Warlick. Thank you, Representative Schiff for your remarks, and 
for your work in reviving the House Freedom of the Press Caucus.
    Amanda, please go ahead and continue.
    Ms. Bennett. Thank you, Congressman Schiff.
    VOA's Russian Service has been in operation since 1947. So threats 
and intimidation are nothing new for us. But in recent years we have 
seen increased harassment by Russian authorities, unexplained 
bureaucratic delays, and increasingly negative public rhetoric about 
VOA's journalism. For example, in January, Foreign Minister Sergey 
Lavrov publicly berated a VOA stringer in Moscow, accusing him of lying 
about Russia's reaction to a U.S. intelligence report. Watch Mr. Lavrov 
here accuse our VOA stringer of promoting lies and junk.
    [A video clip in Russian is shown.]
    Ms. Bennett. In this clip, which went out nationally, he accused 
our stringer of lying. The problem was, Mr. Lavrov was wrong. He was 
reading the wrong story. And the error was so egregious that later the 
foreign ministry spokeswoman posted on the stringer's Facebook page an 
acknowledgement that they had misrepresented the facts. And it's the 
first sort-of apology that any of us can remember.
    There's also financial intimidation. In August this year, two VOA 
stringers in Azerbaijan were summoned to the tax ministry, and both 
were interrogated for about two hours. One of the journalists told VOA 
that she felt threatened by the tone of two investigators when the 
interrogation veered off into questions about her ties to VOA, her 
salary, and her bank account. Her legal representative was not allowed 
into the meeting, and she said she was afraid for herself and her 
family, and asked VOA not to leave her alone against the Azeri 
authorities. If history is any guide, once officials start making 
public accusations against journalists, then threats and intimidation 
and sometimes physical violence follow.
    Public pressure is also placed on the stations that carry our 
content. Take a look at this investigative story that ran on Russia's 
Channel One that pieces together public information--including the BBG 
annual report and an inspector general report--to come to the 
conclusion that VOA had made secret payments to one of our affiliate 
stations.
    [A video clip in Russian is shown.]
    Ms. Bennett. The truth is, the station couldn't find a record of 
payments because there was none. We make our content freely available 
around the world, yet pressure like this caused this station to drop 
VOA.
    This type of intimidation and pressure isn't limited to Russia and 
the Russian periphery. I've just returned from a trip from the Balkans, 
where I heard local journalists speak of their widespread fear about 
pressure from media or business interests aligned with the Kremlin. 
Russian capital has undoubtedly penetrated Serbia's media market. In 
addition to Russian international media such as Sputnik, Russian money 
is funding so-called patriotic orthodox Christian religious web portals 
and other information sites. Russian money is apparently in the TV 
market as well, with TV Nova, a national cable network, rumored to have 
connections with Konstantin Malofeev, a supporter of Putin.
    Although the Russian Government may deny directing harassment and 
intimidation of journalists, it is complicit. Independent Russian 
journalists say the government is, in effect, winking at the 
instigators and empowering local actors. Increasing pressure by 
governments, whether overt or subtle, is closing the space for 
independent journalism, honest dialogue, and the free flow of 
information. VOA journalists are incredibly committed to what they do, 
which is to tell America's story and explain U.S. policy. But we're 
always mindful of our obligation for their safety. Anytime a journalist 
is attacked, threatened, or abused it has a dampening effect on the 
freedom of the press.
    Voice of America provides a much-needed alternative fact-based 
narrative in areas such as the Russian periphery where these networks 
are trying to gain influence, as well as in Africa, the Middle East, 
South Asia, and Latin America. But it is a mistake to think that if we 
are shut down that the result is only silence. There are others waiting 
behind us to fill the gap. News directors from VOA partners with some 
of the biggest independent television stations across Latin America, 
including in Venezuela, Colombia, Mexico and Peru, pleaded with VOA not 
to abandon them. They told us that if we left, RT--as well as the 
Iranian state broadcaster and China's global television, which are all 
funded anywhere from twice to many times the VOA's $234 million annual 
budget--would move in immediately and pay good money to take our place.
    Our presence can protect other journalists, fostering independent 
voices. And this is a critical byproduct of our activities.
    Thank you for the opportunity to speak today.
    Ms. Warlick. And thank you, Amanda, for your presentation. VOA does 
such great work and we hope that they're able to operate without 
challenge in the region.
    Nina.
    Ms. Ognianova. Thank you, Jordan. And thank you to the Commission 
on Security and Cooperation in Europe and the House Freedom of the 
Press Caucus, and Co-Chairs of the Caucus, Representative Adam Schiff 
and Representative Steve Chabot for holding this briefing and bringing 
the attention to attacks on the press in Russia and other countries of 
the former Soviet bloc. I ask that my full written testimony here be 
admitted into the record.
    My name is Nina Ognianova. And I'm the Europe and Central Asia 
program coordinator at the Committee to Protect Journalists [CPJ]. We 
are an independent, nonprofit organization dedicated to defending press 
freedom and the rights of journalists worldwide. It's an honor to speak 
to you today, and I appreciate the opportunity to address the 
Commission and the caucus on behalf of CPJ.
    In this talk, I will first address Russia's press freedom record, 
focusing on some of the recent attacks we have documented on 
journalists and press outlets. All of these attacks have gone 
unpunished. And I will then talk about attacks on the press in Ukraine, 
where impunity in the murder of prominent journalist Pavel Sheremet has 
chilled media coverage. Finally, I will mention the records of 
Azerbaijan and of Kyrgyzstan, which are two of the countries where 
press freedom has continued to worsen this year. And in all of these 
cases, I will reference CPJ's own research over the past nine months 
using specific cases to illustrate regional threats.
    As we heard here, the freedom of the media in the region is 
receding, but it's not just receding in this region. Deteriorating 
freedom of the press in established European democracy and in the 
United States as well has emboldened authoritarian governments in 
Russia and other countries of the former Soviet Union to crack down 
even further on independent media and opposition voices by using a 
variety of methods to silence their critics. In Russia there is an 
entrenched culture of impunity, and journalists are regularly 
intimidated, attacked, or killed for their work, and their assailants 
go unpunished. In Azerbaijan, which is one of the most censored 
countries of the world, an autocratic government has continued to go 
after the press with retaliatory charges and, disturbingly, has started 
to expand its censorship efforts abroad.
    In Kyrgyzstan, a country where once there was liberty for press 
freedom--or, a degree of liberty for press freedom of the countries of 
Central Asia--the president has now lashed out against individual 
journalists and has brought insult and defamation charges against the 
press in the lead up to this year's elections. And even in Ukraine, a 
country where the events of Euromaidan brought new hopes for 
improvement in press freedom, CPJ has documented a concerning tendency 
to equate positive media coverage with patriotism and critical coverage 
with subversion.
    In Russia, according to our most recent impunity index--which is a 
list published each year which calculates the number of unsolved 
journalists' murders as a percentage of the country's population--
Russia ranks 10th worldwide. Nine journalists have been killed in the 
past decade. And the perpetrators have gone free. This number 
represents only deliberate work-related murders. Cases where 
journalists have been killed on dangerous assignments or in combat were 
not included in this index.
    This impunity sends a signal to adversaries of the press in Russia 
that they can continue to censor journalists by intimidating, 
attacking, or killing them for reporting or for publishing opinions. 
CPJ has documented at least 13 separate cases over the past nine months 
in which journalists have been threatened, physically attacked, or 
killed in retaliation for their work. We already heard the story of 
journalist and commentator Yulia Latynina, who writes a column for 
Novaya Gazeta and hosts a weekly radio show on Ekho Moskvy, and how she 
was compelled to flee Russia after a series of attacks against her and 
her family.
    But this is in no way the only case that we have registered. Last 
month--actually, in September--Latynina spoke very eloquently in a 
Moscow Times opinion editorial, where she said it's not that Putin or 
the Kremlin are directly instigating these kinds of attacks. They are 
winking at those who want to organize them. They are empowering local 
talent. And those people are given a free pass to retaliate. Similarly 
to Yulia Latynina, Elena Milashina, who is one of our former 
correspondents--in fact, a Moscow correspondent for CPJ--temporarily 
left Russia after receiving death threats related to a story she broke 
about the detention, torture, and killing of gay men in Chechnya. Two 
days after Novaya Gazeta published Milashina's story, Shahidov, an 
advisor to Chechen President Ramzan Kadyrov, called the paper an enemy 
of our faith and the motherland, and promised to exact vengeance, 
during a gathering of thousands of Chechen men at a large mosque in the 
regional capital.
    After this, Novaya Gazeta issued a statement saying it feared for 
the safety of its journalists, and that Shahidov's remarks would 
encourage religious fanatics to retaliate against our journalists. On 
April 19, sure enough, the paper received an envelope containing an 
unidentified white powder. The only return address was stated simply as 
``Grozny''--Chechnya's capital. Police officers and a team from 
Russia's emergency situation ministry investigated the incident, but 
the powder has yet to be identified. Chechen lawmakers and religious 
officials have also threatened journalists from other outlets, who have 
reported critically on the North Caucasus republic. And these local 
public figures have faced no real consequences from Moscow.
    For instance, in January the speaker of Chechnya's parliament 
threatened Grigory Shvedov, an editor of the independent news website 
Kavkazsky Uzel, one of the handful of publications in Russia that 
independently covers the North Caucasus, including Chechnya. The 
speaker posted a photograph of a dog with its tongue tied in a knot to 
the social media website Instagram, and used crude language to compare 
Shvedov to a dog in need of discipline. I'm quoting, ``It is past time 
to call a veterinarian,'' the post said, ``to pull out Shvedov's wisdom 
teeth and to cut his tongue to size. Then, behold, he might even tell 
us something good and informative.'' Shvedov filed a claim against the 
official with Russia Investigative Committee, but to this day it 
remains unclear whether the Russian authorities even have investigated 
the threat.
    Separately, CPJ has documented two new journalism-related murders 
in Russia this year. Nikolai Andrushchenko, a veteran journalist who 
reported on corruption and police brutality, died on April 19th of 
injuries sustained when unknown assailants severely beat him. He was 
known for his investigative journalism that covered alleged human 
rights abuses and corruption. And he suffered previous physical 
attacks, including one in November the previous year, when several 
assailants attacked him at his doorstep.
    In a separate case, Dmitry Popkov, who as a chief editor of the 
independent local newspaper Ton-M in Siberia, was murdered on May 24th. 
The journalist's body was found with five bullet wounds in his backyard 
in the city of Minusinsk. He was known for his investigative journalism 
alleging abuse of power and corruption, as well as his criticism of 
officials of the ruling United Russian party. Authorities launched an 
investigation into the killing in May, but have yet to report any 
progress.
    In a separate case, authorities continue to hold ethnic Uzbek 
journalist Khudoberdi Nurmatov, who is a contributor to Novaya Gazeta, 
better known by his pen name Ali Feruz. Nurmatov faces deportation to 
Uzbekistan, which he fled in 2008 after local security services tried 
to recruit him as an informant. If he returns to Uzbekistan, he is at 
risk of imprisonment and torture. Since 2016, Nurmatov has reported on 
sensitive subjects such as the plight of Central Asian migrant workers 
in Russia, and the December 2016 presidential election in Uzbekistan 
for Novaya Gazeta.
    After Nurmatov's arrest on immigration charges in Moscow on August 
1st, Novaya Gazeta reported that bailiffs beat, insulted, and shocked 
him while bringing him to a detention center for foreign nationals in a 
Moscow suburb. Novaya Gazeta's Editor-in-Chief Dmitry Muratov, who 
visited Nurmatov in the detention center several days after this 
incident, reported that the journalist had bruises on his back, was 
unable to eat for several days, and suffered from hypertension. CPJ, 
along with other rights defense organizations, has called on Russian 
authorities to release Nurmatov and to grant him legal residency status 
in the country. And separately, there is a case before the European 
Court of Human Rights to have Nurmatov released and, again, to gain him 
legal residency in Russia. But he's still in detention.
    Now I'm going to talk about Ukraine, which, of course, has grabbed 
many headlines because of the conflict between Ukrainian forces and 
Russian-backed separatists in Ukraine's east. However, I would like to 
draw attention to the deteriorating press freedom situation in Ukraine.
    The high-profile murder of prominent Belarus-born journalist and 
CPJ International Press Freedom Award recipient Pavel Sheremet in 
downtown Kiev last year brought into sharp relief a number of press 
freedom issues, including the concerning tendency, which is encouraged 
by the government, to label journalists and media organizations as 
unpatriotic when they report critically on the government. CPJ covered 
this and other press freedom issues in our recent report, ``Justice 
Denied: Ukraine comes up empty in probe of Pavel Sheremet's murder,'' 
which found that Sheremet's murder had taken place amid a divisive time 
in Ukraine.
    The year he was killed, CPJ documented an uptick in attacks and 
hostility against journalists who covered the government critically or 
who questioned its handling of the conflict in the east. Nationalist 
groups verbally assaulted or threatened journalists reporting from the 
conflict region. In some instances, government and security officials, 
including Interior Minister Arsen Avakov, not only stood by, but 
cheered on the attackers. When a CPJ delegation visited Kiev this past 
July, we met with all three branches of law enforcement responsible for 
solving Sheremet's murder--the General Prosecutor's Office, the 
National Police, and the country's Security Service, the SBU. We also 
met with President Poroshenko.
    Despite stated assurances that Ukraine is committed to solving this 
terrible murder as a matter of honor, authorities have reported no 
progress, no arrests, no prosecutions, and no leading motive for the 
killing. Sheremet's colleagues at the independent news website 
Ukrainska Pravda told us that the continued impunity in his murder has 
made them more cautious in their reporting. ``I fear for the safety of 
my colleagues ever since Sheremet's death,'' Ukrainska Pravda editor-
in-chief Sevgil Musayeva told CPJ. ``After this murder, you want to be 
more careful. And I don't know how long this feeling will last.''
    Separately, Ukrainian authorities have cracked down on journalists 
and media outlets who, they have said, threaten Ukraine's national 
interests. In a September 18th public letter to President Poroshenko, 
CPJ expressed our deep concern at the SBU's recent actions that have 
infringed on press freedom in the country. CPJ has documented at least 
seven separate incidents over the previous two months in which the 
security forces targeted newsrooms and journalists based on accusations 
that appeared politically motivated, and in retaliation for their 
critical reporting.
    In our letter, we mentioned the SBU's September 14th visit to 
Ukrainska Pravda during which a representative of the SBU delivered a 
letter demanding the outlet take down an article critical of the 
Ukrainian defense capabilities. We also detailed three separate cases 
from August in which SBU agents expelled international journalists, and 
barred them from Ukraine for three years. And in another case, also 
flagged in the letter, the SBU has detained since August 1st a 
freelance journalist who reported critically on Ukrainian politics, and 
now faces 15 years in prison on anti-state charges.
    We also detailed the July 14th raid of the Kiev offices of Media 
Holding Vesti, which includes a radio station, a news website, and a 
newspaper. A military prosecutor along with 80 masked and armed 
security officers searched the Vesti offices, allegedly seeking 
evidence in a fraud investigation. We called on President Poroshenko to 
denounce the SBU's recent actions, and to reaffirm his commitment to 
ensuring journalists' safety, to demonstrate his commitment to 
defending democratic institutions. And he has yet to do so.
    In Azerbaijan, which is a well-known autocratic country, President 
Ilham Aliyev has enjoyed wide-ranging powers that he inherited, 
practically, when he got the post from his father in 2003. During his 
time in office, Aliyev has cracked down on independent and pro-
opposition outlets, non-governmental institutions and opposition 
activists. His harsh measures have pushed many into exile, while 
authorities have imprisoned some of Aliyev's most vocal critics. This 
year alone, Azerbaijan imprisoned six journalists in addition to the 
five it was already holding since the year before. Disturbingly, 
Azerbaijan is now extending its justice code abroad.
    Belarussian authorities in February 2016 extradited Russian-Israeli 
blogger Aleksandr Lapshin to Azerbaijan for trial at the request of 
Baku. Azeri authorities then charged the journalist of traveling to, 
and reporting from, the disputed Nagorno-Karabakh region, and for 
criticizing Azeri Government policies. In July of this year, an Azeri 
court convicted Lapshin to three years in jail for illegally crossing 
the state border. And though he was eventually pardoned and released 
following an international outcry, this is one of several cases in 
which Azeri authorities have attempted to quiet their critics abroad.
    In the most recent case, a French court held a hearing on September 
5th in a criminal defamation lawsuit against two French broadcast 
journalists over an investigative report they did two years ago. The 
report, which aired on a major French broadcaster, referred to 
Azerbaijan as a dictatorship. In response, Azerbaijan filed charges 
against the report's authors, Elise Lucet and Laurent Richard. And, 
disconcertingly, the French justice ministry has complied, and has gone 
ahead with the prosecution. The next hearing in the case is scheduled 
for November 7th in France.
    Most disturbing is the case of Afgan Mukhtarli, who is a freelance 
journalist who contributed to the Berlin-based independent news outlet, 
Meydan TV, and the London-based Institute of War and Peace Reporting. 
Mukhtarli fled to Georgia from Azerbaijan in 2014 after he received 
threats over his investigative reporting on corruption in Azerbaijan's 
Defense Ministry. On May 29th of this year, Mukhtarli's wife reported 
him missing. The journalist's lawyer in Baku told CPJ that Mukhtarli 
had been abducted from Tbilisi and forcefully brought back to 
Azerbaijan.
    Before he disappeared, he had been investigating the assets of 
Azerbaijan's first family in Georgia. And Azeri authorities, after he 
somehow ended up across the border, charged Mukhtarli with illegally 
crossing the border and bringing in contraband, according to his 
lawyer, who said Mukhtarli told him the police had planted =10,000 in 
his pocket while he was knocked unconscious. Georgia's Interior 
Ministry said in May that it was investigating the incident, but has 
yet to make any public announcement as to any progress in the case.
    In Kyrgyzstan, on October 15th, voters will go to the polls to 
elect their next president. But the incumbent, Almazbek Atambayev, has 
created a legacy of restriction and intolerance for criticism from the 
press. This March alone, on at least three separate occasions, 
President Atambayev singled out several independent journalists for 
public rebuke, accused the media of pouring dirt on him, and accused 
the Kyrgyz Service of the U.S. broadcaster RFE/RL of spreading gossip 
about him in order to keep its U.S. Government funders happy.
    These public statements by Kyrgyzstan's top leader were followed by 
legal actions against some of the journalists and outlets Atambayev 
chastised. For instance, hours following the president's March 6 
speech, during which he criticized RFE/RL, the prosecutor general's 
office charged the broadcaster's Kyrgyz Service, known locally as 
Azattyk, with insulting the president. On March 13th, prosecutors filed 
another lawsuit against Azattyk and a separate lawsuit against Naryn 
Idinov, a co-founder of the independent online news agency Zanoza, whom 
Atambayev had attacked in a different public speech. Idinov and his 
outlet, Zanoza, were also sued for insulting the president.
    Despite a years-long campaign by international media rights groups, 
including CPJ, to release an ethnic Uzbek journalist from Kyrgyzstan, 
who was sentenced to life in prison in September of 2010 on charges 
widely recognized as politically motivated, Kyrgyzstan has continued to 
defy its international commitments and has continued to hold the 
journalist in prison. On April 21st, 2016, in a milestone decision, the 
U.N. Human Rights Committee called on Kyrgyzstan to immediately release 
the journalist, Azimjon Askarov, and quash his conviction after they 
reviewed a complaint filed by Askarov's lawyers and team of experts 
from the New York-based Open Society Justice Initiative. Under its 
international obligations, Kyrgyzstan is obligated to respect the 
U.N.'s findings. And yet, on 24th of January this year, a Bishkek court 
upheld the life sentence against Askarov, and he continues to languish 
in jail.
    The international community, including leaders in the United 
States, cannot afford to be indifferent to attacks on the press in 
Russia and the former Soviet bloc. The already embattled press corps in 
these countries continue to look up to Washington for solidarity and 
support. The United States must not abandon them, and must not forgo 
its role as a moral authority and bastion of freedom of the press. When 
independent journalists are threatened, attacked, and silenced in the 
ways that we have all talked about here today, the rest of the world is 
left underinformed about sensitive issues of international interest 
such as corruption, human rights abuses, and ongoing conflicts.
    CPJ urges the U.S. Helsinki Commission and the House Freedom of the 
Press Caucus to make press freedom a priority, and to take a firm stand 
against censorship as it is displayed in Russia, Azerbaijan, 
Kyrgyzstan, Ukraine, and elsewhere in the former Soviet bloc.
    Thank you for providing CPJ with the opportunity to address this 
pressing matter.
    Ms. Warlick. And thank you very much, Nina, for that great summary 
of the situations in Russia, Ukraine, Azerbaijan and Kyrgyzstan.
    Karina.
    Ms. Orlova. Good afternoon. My name is Karina Orlova, and I'm a 
correspondent for Radio Echo of Moscow. I've been in the United States 
since April of 2015. That is when I had to flee Russia because of 
persecution of state-backed Chechen radicals, which you've heard about.
    It all started right after the terror attack at the Charlie Hebdo 
Magazine office in Paris in January of 2015, after the magazine had 
published caricatures of Mohammad. The attack led to a million-people 
march in Paris of those who support freedom of press and condemn 
terrorism. In Russia, though, the only million-people march took place 
in Chechnya's capital, Grozny. And those people condemned the murdered 
journalists and caricatures of Mohammad. On Echo, all the radio hosts--
and I was one of them--wore T-shirts with the Charlie Hebdo logo the 
day after the attack in support for the murdered journalists and the 
magazine.
    Ramzan Kadyrov, the Chechnya dictator who is now well known for 
persecuting and torturing gay people in Chechnya, took a stance too. On 
his Instagram account, where he is very active, Kadyrov threatened a 
former Russian oil tycoon and prisoner Mikhail Khodorkovsky, who at 
that time lived in Switzerland, after Khodorkovsky called for 
reprinting caricatures in support of freedom of press. My guest speaker 
at the talk show I hosted was a member of the presidential council for 
human rights. And of course, I made him speak about Kadyrov's public 
threats. And I insisted questioning the speaker on whether he should 
have immediately delivered the issue to the council and whether Kadyrov 
should have been stopped by law enforcement.
    Of course, no one stopped Ramzan Kadyrov, and two days later he 
publicly threatened all the journalists at Echo and personally its 
chief editor Alexey Venediktov. Right after the show, I started 
receiving death threats from people who called me the enemy of Islam 
and Kadyrov and who identified themselves as Chechens. They were not 
hiding their personalities. I received those threats continuously. And 
after Boris Nemtsov had been murdered in the center of Moscow in 
February of 2015, and I was still receiving threats, I made a decision 
to leave the country. I realized that if they could murder Boris 
Nemtsov, such a big, prominent public figure, then no one and nothing 
could protect me.
    Ramzan Kadyrov is a real danger to people. But as shocking as it 
may sound, in Russia we all kind of got used to it. There is nothing 
that can be done about Kadyrov, because he is Putin's guarantee of 
peace in Chechnya. And Putin would pay for this peace with lives of 
others, like human rights activist Natalya Estemirova and journalist 
Anna Politkovskaya, both murdered by Kadyrov's people. And yet, I'm not 
talking about ordinary Chechens who suffer from Kadyrov on a daily 
basis. Citizens of other regions of Russia are now suffering from 
Kadyrov too.
    But a much worse thing here I discovered was that the federal 
police are not in charge when it comes to Kadyrov or his people. I 
filed a report on the threat to Moscow police and they didn't do 
anything about it, literally. For a week they weren't even opening a 
case. And only after Echo's chief editor made a call to Russia's 
interior minister office the police did open the criminal case. But 
this was a total--[inaudible]. The investigator who questioned me told 
me openly that my problem could have been easily solved if I had 
stopped doing my job, and that my job was the problem that caused the 
threats. To cut a long story short, the police never did anything and 
closed the case without investigating it four months later.
    So independent journalists in Russia are seen as the enemy of the 
state and the government. And law enforcement does not protect them at 
all. In small Russian cities and towns, the situation is even worse 
because when a journalist from a well known media outlet is persecuted, 
it draws attention of other big media outlets. But when it happens in a 
small city, journalists are often left one-on-one with local 
bureaucracy and authorities. And I'd say that governors are the worst 
threat--the biggest threat to journalists in Russian regions, physical 
threat.
    The most well-known example is the town of Pskov governor who 
ordered an assault on Oleg Kashin, a prominent Russian journalist. 
Kashin was severely beaten with a metal reinforcement and survived by a 
miracle, literally. The actors of the assault, they were caught and 
they testified against the governor of town, Andrei Turchak, but he was 
never charged with anything, and he still is a governor. Or, another 
famous story, when the investigative committee head, Alexander 
Bastrykin, took a Novaya Gazeta journalist to the woods and threatened 
him there. Bastrykin is still in the office. He's fine.
    Among other means of containing journalists in Russia is, of 
course, censorship. For instance, it's a really simple example: Calling 
annexation of Crimea an annexation will lead to either criminal charges 
for calling for separatism, or a warning from the federal media 
watchdog. Two warnings within a year lead to media license suspension. 
So I'd say it is 100 percent safe to call things what they are only 
being out of Russian jurisdiction.
    I have no idea what to do about physical threat to journalists. But 
as to censorship, well, one can suspend license from media outlets, but 
it cannot be done with social media. Social media is a weapon Russians 
used against democracy in the U.S. in 2016. But this same weapon, I 
think, may and should be successfully used against Putin's regime.
    Also, I would--unfortunately Congressman Schiff has left us, but I 
would call for American intelligence services or--I don't know--
authorities to leak as much as possible on Putin, because for sure they 
know they have information on Putin's money and Putin and his cronies' 
money. And it should be out there. It should be leaked to the press, so 
that we have more cases like the Panama Papers story. It was good.
    If we want to protect journalists from physical assault, we should 
destroy Putin's regime.
    Thank you.
    Ms. Warlick. Well, thank you, Karina, for sharing your personal 
story and experiences with us here today. And thank you to all of you 
for your remarks.
    Before opening up to audience Q&A, I'd like to ask a few questions 
of my own.
    The subjects that journalists are typically targeted for reporting 
on include corruption, human-rights abuses, criticism of authoritarian 
regimes and other sensitive subjects. It's also incredibly important 
that journalists continue to bring attention to these issues.
    Are you concerned that if risks become more severe in the region 
that journalists will self censor rather than risk political backlash? 
And how do we negate that?
    Tom or Amanda, maybe you could speak to this first since 
journalists at RFE and VOA really tackle these tough subjects.
    Ms. Bennett. Well, you know, I certainly hope we don't have that 
issue at RFE or VOA. But certainly, when I came through the Balkans, 
the journalists were openly complaining about the need to self-censor, 
because the owners of their papers were putting pressure on them as 
well. So this was an open topic of conversation that they wished they 
could do something different. And in some ways they saw us as a 
protection for times when they were able to do things.
    Ms. Warlick. Anything to add to that, Tom?
    Mr. Kent. Self censorship is always a problem. But with the kind of 
regimes we sometimes deal with, anything you report can be considered 
outrageous. So you don't have to hold back very much. You almost always 
will manage to get some kind of material out that will show some 
dimension of the regime which is not widely known and will bring you 
some blowback, for sure.
    Ms. Warlick. Nina or Karina, do you have anything to add?
    Ms. Ognianova. It's not that I fear that journalists will risk self 
censorship. They already are doing it. In many of the countries that we 
cover, we have seen that independent pro-opposition outlets have either 
had to leave the countries where they've operated and have been forced 
into exile--which, of course, creates all kinds of difficulty, to have 
a network of journalists and correspondents in the countries that they 
cover. And those individual journalists left on the ground are left 
even more vulnerable without the protection of a newsroom and an 
organization behind them. So, of course, they have to think about which 
topics they go into and which they don't. And they do so at incredible 
peril.
    I mean, just look at Khadija Ismayilova in Azerbaijan, who really 
is one of the bravest reporters out there, who has tackled corruption 
like very few others and has made it her personal mission to continue 
to fight this regime. She has taken this as her mission in life to 
continue doing this job. But journalists have to be faced with this 
dilemma in many countries of the former Soviet bloc--they are faced 
with this dilemma. And they have two choices--either to remain and make 
some compromises with their coverage and tone down, or to leave their 
countries in order to get into safety and to get their families into 
safety. It's really an impossible choice.
    Ms. Orlova. Well, yes, I agree with Nina. Journalists are doing it, 
are applying self censorship. I've never done this, so maybe that is 
why I'm here now. But in defense to my colleagues--they avoid saying 
annexation. It's so simple, but they really do avoid it. And they 
prefer saying--in Russia they call it ``joining Crimea'' or ``returning 
Crimea.'' And they always say, like, ``ha, ha, ha, joining Crimea, ha, 
ha, ha.''
    Well, this ha, ha, ha means, like, we all know it was illegal. It 
was annexation. But we will pretend. Again, I think that they also 
protect the media outlets they work for, because no one wants to be 
shut down.
    Ms. Warlick. Yes. Thank you all.
    In terms of who is responsible for many of these attacks on 
journalists, Karina, you spoke a little bit about that. But we've seen 
cases where there are pretty direct ties to even the highest echelons 
of the government. In Russia and other countries that we're discussing 
today, how much of the threat comes from the top versus on more of a 
local level? And to expand on that, how do we know when these attacks 
are instigated by criminal organizations or terrorists or 
ultranationalists versus orchestrated from government officials?
    Maybe, Nina, you could kick us off due to your experience 
monitoring so many of these cases so closely at CPJ.
    Ms. Ognianova. Well, it's very difficult to determine who's 
responsible when there is no or there is little independent thorough 
investigation into those cases. One can suspect who the actors are and 
who the responsible commissioners are. But some of this killing and 
some of these attacks are very professionally done. Unless there is a 
concerted effort from local law enforcement with positive pressure of 
the international community to do those investigations and do them 
right, there is really no way of saying who's responsible. We can 
speculate, but we cannot say.
    In most of the high-profile murders, of course, there is an element 
of suspicion that a crime has been either commissioned or approved by 
the high ups. But, again, we're not prosecutors. We're not 
investigators. We cannot say that for sure. It's for the responsible 
authorities to do their job. And it's our responsibility to push those 
responsible authorities to do their job and do it well.
    In many cases where there is--you know, CPJ has a long record of 
tracking these cases. And we have the Impunity Index, where--for 
example, Russia has always been one of the leading, most infamous 
countries on this list. And in 90 percent of these cases the 
perpetrators are not even identified, let alone prosecuted and punished 
for their actions.
    So it's very difficult to pinpoint. But what we can say for sure is 
that these governments, where the attacks on the press happen with 
impunity, are responsible for creating the climate and the atmosphere 
in which these crimes are being committed. They are responsible for 
allowing this atmosphere of impunity, to say the least. And, again, as 
Yulia Latynina very eloquently put it, they have either lost control of 
the violence or have voluntarily relinquished this control. We don't 
know which one. But the truth of the matter is that journalists are 
being attacked with disconcerting frequency in Russia and other 
countries of the Soviet bloc. And the perpetrators are almost never 
brought to justice.
    Ms. Warlick. Anyone else like to respond to this?
    Mr. Kent. I think that's just the point, that it all depends on the 
tone set at the top. In many cases you'll have no idea who really gave 
the order for something or whether some local official or policeman 
just felt, well, hey, it seems like open season on journalists, so I'm 
going to do my part.
    It all depends on what tone comes from the leadership. And that's 
where I think that governments can be expected to show some respect for 
international human rights and also for their own constitutions.
    Ms. Warlick. OK. Well, we are running a little bit low on time, so 
I would like to open it up to the audience. If you could, please 
volunteer and introduce yourself when you pose a question.
    Questioner. Albert from Congressman Schiff's office.
    I was wondering if you could speak to the impact of new media in 
empowering the voices of dissenters--Alexei Navalny, I think he has a 
YouTube channel where he posts videos. I don't know if others have 
taken that route? It seems to me that censorship is harder on that end.
    Ms. Warlick. New media.
    Ms. Orlova. I'm not a big expert on new media, but I appreciate 
Radio Free Europe job, and especially a program on Current Time called 
Unknown Russia. It's a fantastic job; my favorite one.
    But I think that Americans should be one step ahead. And new media 
is one step ahead, or maybe not even ahead, but, you know, in the line. 
With traditional media, it's always one step behind. And censorship--
what can you do about social media? Like, we have a Russian Facebook. 
Well, they have Facebook, actual Facebook, and they have Russian 
version of Facebook, VKontakte, with 60 million users, I guess on 
VKontakte. It's a great place to spread news from American media 
outlets.
    Mr. Kent. Yes, I think that social media is the key. It's opened up 
an entirely new opportunity for people to make comments on their own. 
And I think that governments in many cases just don't know how to deal 
with it. In China, you hear there are enormous numbers of people who 
spend all their time censoring the internet. And whether other 
countries can make that kind of commitment, who knows? It's very, very 
difficult. It's sort of the magic bullet for people to be able to speak 
out about their own countries.
    Just ourselves, we're in the post-Soviet space. In August we had 13 
million people or 13 million engagements on our Facebook pages, people 
who shared something or made a comment. And we're not special. I mean, 
many, many popular figures, news organizations and so forth, get that 
kind of engagement. So it's something that I think the regimes are 
going to have a lot of trouble in controlling.
    Ms. Ognianova. Absolutely, social media is the new frontier. It's 
the platform that a lot of journalists go to in the contraction of the 
space in traditional outlets. And Russians have produced successfully 
their social media networks. But, of course, the governments are 
following what's happening, and they are also trying to crack down and 
to regulate some of these developments.
    In Russia, for example, now there is a law that requires bloggers 
with 10,000 or more followers to register as media outlets. And that 
makes those blogs and those bloggers susceptible to the restrictions of 
the media laws in Russia, which already have a set of tools that can 
regulate and restrict freedom of expression.
    Bloggers--we have been documenting more and more cases where 
bloggers have been attacked for their opinion and their journalistic 
activity through their personal blogs. If you go on our website, 
www.CPJ.org, we have statistics on imprisoned journalists. And a big 
percentage of those are online journalists, including bloggers and 
social media users, who have crossed into the definition of 
journalistic activity. We have a pretty broad definition of who we 
consider a journalist, and that includes personal bloggers. And you 
will see that the tendency to crack down on those kinds of activities 
has gone up in recent years.
    Ms. Warlick. OK. All right. Right here.
    Questioner. Thank you very much. My name is Alex and I'm from 
Azerbaijan. I thank you all for a very compelling presentation, 
particularly on Azerbaijan.
    When Russia attacked Azerbaijan in the 1990s, our country found 
itself in a very interesting situation. There was no second source to 
get information about what exactly was going on--until a few 
journalists got together and they decided to change that reality, and 
they established a news agency, which actually happened to be the first 
news agency, independent news agency, in the post-Soviet region.
    And now, as we see a different station, the government is going 
after international media outlets. They decided to bring their own 
independent media also [in their needs ?], and then you have different 
reality. You have Russian media being--like Sputnik and others that are 
being able to operate in Azerbaijan.
    So what does it tell us, from maybe U.S. and also those countries' 
national security perspective? What kind of possible outcomes can you 
provide us when you have that reality, that Western and independent 
media organizations cannot operate but you have Russian media being 
operated in those countries?
    Ms. Warlick. Does anyone want to tackle that?
    Ms. Bennett. I'm afraid that's beyond our capabilities.
    Mr. Kent. I don't think we can make political prognostications 
about that.
    Ms. Warlick. Would you like to rephrase your question at all for 
the panel, maybe?
    Questioner. Is there any way to make a national security case from 
this attack against press freedom, particularly not only local media 
and international, independent and Western media organizations in those 
countries? On one hand you have Russia media organizations are 
greenlighted, and then you don't have any other media outlets. What 
does it tell us from a national security perspective?
    Ms. Warlick. [Laughs.] Our panel looks stumped. [Laughs.]
    Ms. Bennett. I don't think any of us are really national security 
experts. I think we could make a national security case for the value 
of a free press around the world, but beyond that, I'm not sure----
    Ms. Orlova. Yes, I agree.
    Ms. Warlick. That's actually one of the questions I was a hoping to 
ask was, at the OSCE Human Dimension Implementation Meeting in Warsaw, 
we had the opportunity to meet with the Representative on Freedom of 
the Media, Harlem Desir. And he mentioned that one of his priorities is 
reconciling national security and press freedom. But we know that 
journalists are targeted often on the basis of national security 
concerns, sometimes even framed as an internal enemy.
    Is there a way, or what is the best way, to convince countries, 
both government officials and the public, that a free press is in their 
national interest?
    Ms. Bennett. W I think that we all operate under the assumption, 
and the historical assumption that a free press is the basis, one of 
the fundamental bases, for a free and democratic society. If you're 
hoping to operate a free and democratic society, then you obviously 
need a free press to do that. These two things go together in our mind.
    Ms. Ognianova. I agree. I think that what we can say is that it is 
in the national security of any government to allow an independent 
press to operate freely, because those governments too need free and 
independent and truthful information. And if all information is 
controlled and filtered, then the government itself loses its 
connection with reality and what's going on, not only inside the 
country but the rest of the world, if the country continues to contract 
the free space and therefore isolate itself from the rest of the 
international community.
    Ms. Warlick. All right, next question.
    Questioner. Hi. I'm Jordan from Congressman Josh Gottheimer's 
office.
    I was wondering if you think that tools of international 
diplomacy--for example, economic sanctions--might be an effective way 
of pressuring the Putin regime into alleviating restrictions on the 
press, or if you think we might have perhaps more success working with 
local governments to change the culture from the bottom up.
    Thanks.
    Ms. Orlova. Oh, yes. Actually, sanctions do work, especially 
financial sanctions. Although the Russian Government pretends they do 
not, it's not true, because we know, for instance, in 2015 the head of 
VTB Bank, Andrey Kostin, was here running around Capitol Hill begging 
for financing for his banks, saying, well, I don't have anything to do 
with the Kremlin agenda, we're independent. And for the sake of 
Ukraine, because we operate in Ukraine, just give us some money--
something like that.
    So sanctions do work, financial sanctions. I'm not so sure about 
whether--well, I'm against RT and Sputnik, but it's not so simple, 
because if RT is prohibited here in the States, then all other media, 
like American media outlets, will be prohibited, I guess, in Russia. So 
I'm not sure if it's worth it, because, despite the fact that RT has a 
huge budget, it's totally corrupted as anything in Russia. So a big 
part of this budget goes to Margarita Simonyan--she lives large.
    They really don't spend that much, because they're not ideological. 
They don't care about--they're not Soviets, you know. At least Soviets 
have their agenda, real ideology, as crooked as it was. But they did. 
Those guys, no, their only ideology is money. So I'm not sure. But 
financial sanctions, yes. Putin--I think that the United States should 
keep pressing Kremlin with financial sanctions as much as possible.
    Ms. Warlick. This will be the final question, for the sake of time.
    MASSARO: I'm Paul Massaro and I'm the anticorruption advisor at the 
Helsinki Commission. Really excited to have you all here.
    I'm very interested in this nexus between corruption and press 
freedom. I was hoping you could make some comments on to what extent 
are these attacks largely caused by investigations into corrupt 
dealings among politicians and others? And to what extent is press 
freedom a necessary or useful aspect to combat corruption in these 
countries?
    Mr. Kent. I think corruption is always the hot-button issue. In 
many of the countries that we deal with, it is possible to write a 
story in a newspaper website saying even that the president's foreign 
policy is misguided and so forth. This passes as acceptable speech 
sometimes. But, boy, you get into certain financial stuff and 
mentioning certain people and certain banks and so forth, it's a really 
different story. So I think you're right that it opens the way to lots 
of problems, the way some other reporting doesn't.
    Ms. Bennett. I would completely agree with that. And also, 
ironically--maybe not ironically--it's also the subject you find that 
their reporters, the journalists themselves, are most drawn to wanting 
to do. I think it's partly because it's so present. It's so present. 
And it seems so wrong to them that they want to do investigative work 
on it.
    Ms. Ognianova. Corruption is also probably the most dangerous 
assignment for journalists. If you look at the statistics of killed 
journalists across most of the Eurasia region, the majority covered 
corruption. And most of them were attacked or threatened before the 
violence against them escalated, because they did some hard-hitting 
piece on corruption.
    It is absolutely amazing that those journalists continue to do the 
kind of work that they do, because the danger to them is immense. And 
every year we document the Global Impunity Index. We come up with the 
documentation to show that it is those journalists who, like lone 
warriors, go into this environment and tackle this subject. It's mostly 
corruption and human rights abuses that have them targeted.
    Ms. Warlick. OK. Well, to wrap up, I'd like to give you the 
opportunity to say any final words that you'd like, and maybe provide 
us with some concrete recommendations for U.S. Government, U.S. 
Congress, the OSCE, and whatever final words you'd like to leave us 
with.
    Ms. Orlova. I would recommend looking as much as possible on Putin 
and his money, because there is no way Putin can be friends with the 
United States again. And what else? Supporting journalism, like true 
journalism and spreading it on social media is a good way to reach out 
to Russian people.
    Ms. Ognianova. I would like to see more of this kind of briefing. 
Again, thank you to the Commission and to the Freedom of the Press 
Caucus for convening this, because I think that even though the 
advocacy opportunities with some of those governments that we talked 
about may be very limited at the moment, it remains very important for 
the public, and leadership in the U.S. to be informed about press 
freedom issues in the region and to continue its support for the 
embattled press corps. They do look to Washington for both moral 
support and tangible support. They continue to do that. And Washington 
and the U.S. should not forgo that role.
    Ms. Bennett. I would like to say that it appears to me that we are 
in a moment that is as dangerous and as threatening for a free press 
around the world as any we've ever been in our lifetimes, certainly. I 
would not underestimate by any measure the impact that U.S. 
international media, the BBG, has around the world in a number of 
different ways.
    There's the material that we put out there that provides an 
alternative narrative. There is the fact that not just the immediate 
media but all the surrounding media is also corrupt and held down. And 
so it provides, like a wire service, to put actual other material out 
into the local press. It gives them some alternative thing to put in 
there.
    We also provide protection for local journalists to do the kind of 
work that they want to do by partnering with them, giving them an 
outlet. And, in fact, I was amazed to discover the number of media 
people who said simply by having us appear on their programs would have 
a protective effect for them for a long time.
    So we have a huge impact in these regions. And I think that for us 
to continue to do our work in as robust a way as possible is certainly 
one way of combating this, because I don't think any of us here should 
underestimate what's going on in the world.
    Mr. Kent. I certainly endorse everything Amanda says. And let me 
just add one thing, on sort of an optimistic note, a little more big 
picture, and that is that information gets out. The truth gets out. 
Reporters go through horrible experiences--sometimes they're attacked, 
beaten and so forth; self censorship; huge propaganda operations 
arrayed against the truth--yet I don't think we have any doubt about 
the nature of the regimes in the world. I don't think ultimately the 
citizens of those regimes have any doubt about what goes on in those 
countries.
    The truth is very, very hard to suppress, even more so now with 
social networks and the abilities of people to communicate with each 
other. This is a terribly difficult job we do. We're under terrible 
pressures. We try to defend our people as best we can. But we know that 
ultimately information wants to get out. It wants to be free. And it 
always ultimately wins.
    Ms. Warlick. Thank you very much, and to all of you for your 
remarks today and for being here.
    Thanks too to the House Freedom of the Press Caucus for working 
with the Helsinki Commission on this event.
    And thank you all for being here today. [Applause.]
    [Whereupon, at 4:40 p.m., the briefing ended.]
    
 
                    A P P E N D I X



Systematic Attacks on Journalists in Russia and Other Post-Soviet 
States

    Thank you to the Commission on Security and Cooperation in Europe 
and the House Freedom of the Press Caucus, and Co-Chairs of the Caucus, 
Representative Adam Schiff and Representative Steve Chabot, for holding 
this briefing to bring attention to attacks on the press in Russia and 
other countries of the former Soviet bloc. I ask that my full written 
testimony be admitted into the record. My name is Nina Ognianova and I 
am the Europe and Central Asia program coordinator of the Committee to 
Protect Journalists. CPJ is an independent, nonprofit organization 
dedicated to defending press freedom and the rights of journalists 
worldwide. It is an honor to speak to you today and I appreciate the 
opportunity to address the Commission and the Caucus on behalf of CPJ.
    In my testimony, I will first address Russia's press freedom 
record, focusing on recent cases of attacks on journalists and press 
freedom outlets, which have largely gone unpunished.
    I will then talk about attacks on the press in Ukraine, where 
impunity in the murder of prominent journalist Pavel Sheremet has 
chilled media coverage.
    Finally, I will mention the records of Azerbaijan and Kyrgyzstan, 
two countries where press freedom has continued to worsen.
    In all these cases I will reference CPJ's research over the past 
nine months, using specific cases to illustrate regional threats.

Introduction

    Receding media freedom both in established European democracies and 
in the United States has emboldened authoritarian governments in Russia 
and other countries of the former Soviet Union to crack down on 
independent media and opposition voices using a variety of methods to 
silence their critics.
    In Russia, there is an entrenched culture of impunity: journalists 
are regularly intimidated, attacked or killed for their work, and their 
assailants go unpunished.
    In Azerbaijan, one of the most censored countries in the world, an 
autocratic government has continued to go after the press with 
retaliatory charges, and, disturbingly, has been expanding its 
censorship abroad.
    In Kyrgyzstan, a country once considered a leader of press freedom 
in Central Asia, the president has lashed out against individual 
journalists, and brought insult and defamation charges against the 
press in the lead up to this year's election.
    Even in Ukraine, a country where the events of Euromaidan brought 
new hopes for improvement in press freedom, CPJ has documented a 
concerning tendency, supported by the government, to equate positive 
media coverage with patriotism and critical coverage with subversion.

Russia

    According to CPJ's most recent Impunity Index - a list published 
each year by CPJ, which calculates the number of unsolved journalist 
murders as a percentage of a country's population - Russia ranks 10th 
worldwide. Nine journalists have been killed in the past decade, and 
nearly all perpetrators have gone free. This number represents only 
deliberate, work-related murders; cases of journalists killed on 
dangerous assignments or in combat were not included.
    In spite of a few convictions in recent years in a couple of high-
profile murders that date back to the early 2000s, such as the 
sentencing and imprisonment of several men for the murder of Novaya 
Gazeta journalists Anna Politkovskaya and Igor Domnikov, none of the 
crimes' commissioners have been brought to justice.
    This impunity sends a signal to adversaries of press freedom in 
Russia that they can continue to censor journalists by intimidating, 
attacking or killing them for their reporting or published opinions.
    CPJ has documented at least 13 separate cases over the past eight 
months, in which journalists have been threatened, physically attacked 
or killed in retaliation for their work. Last month, the well-known 
journalist and commentator Yulia Latynina, who writes a column for the 
independent Novaya Gazeta newspaper, and hosts a weekly radio show on 
Ekho Moskvy radio, was compelled to flee Russia after a series of 
attacks against her and her family.
    In the latest incident on September 3, attackers set fire to 
Latynina's car parked near the wooden house she shares with her parents 
in the Moscow suburbs. This occurred two months after unknown 
assailants sprayed a foul-smelling substance through the window of 
Latynina's home, causing several of the residents, including two 
children, to get sick. Though Russian authorities launched 
investigations into both incidents, they have yet to hold those 
responsible to account.
    Last month during her radio show, Latynina, spoke from an 
undisclosed location, and told listeners she did not intend to return 
to Russia any time soon.
    In a September 22 op-ed for The Moscow Times, Latynina said she 
left the country because she felt the Kremlin had renounced control 
over those who perpetrate violence against its opponents. ``It's not 
that Putin or the Kremlin are directly instigating these kinds of 
attacks,'' she said. ``They are winking at those who want to organize 
them. They're empowering `local talent,' and those people are given a 
free pass.''
    Similarly, in April, Novaya Gazeta's prominent investigative 
journalist Elena Milashina temporarily left Russia after receiving 
death threats related to a story she broke about the detention, 
torture, and killing of gay men in Chechnya, a Russian republic.
    Two days after Novaya Gazeta published Milashina's story, Adam 
Shahidov, an advisor to Chechen President Ramzan Kadyrov, called the 
paper an enemy ``of our faith and motherland,'' and promised to exact 
``vengeance'' during a gathering of thousands of Chechen men at a large 
mosque in the regional capital.
    After this, Novaya Gazeta issued a statement saying it feared for 
the safety of its reporters, and that Shahidov's remarks would 
``encourage religious fanatics to retaliate against our journalists.''
    On April 19, the paper received an envelope containing an 
unidentified white powder. The only return address was stated simply as 
``Grozny''-Chechnya's capital. Police officers and a team from Russia's 
emergency situations ministry investigated the incident, but the powder 
has yet to be identified, Novaya Gazeta journalists told CPJ.
    Chechen lawmakers and religious officials have also threatened 
journalists from other newsrooms who have reported critically on the 
North Caucasus republic, and these local public figures have faced no 
real consequences from Moscow.
    A Chechen lawmaker and religious officials threatened Aleksei 
Venediktov, editor of the radio station Ekho Moskovy, after Venediktov 
expressed solidarity with Novaya Gazeta's staff in an April 14 blog 
post.
    The speaker of Chechnya's parliament, Magomed Daudov, threatened 
Grigory Shvedov, the editor of the independent news website Kavkazsky 
Uzel (Caucasian Knot), one of a handful of publications in Russia that 
independently covers the North Caucasus region, including Chechnya.
    On January 4, Daudov posted a photograph of a dog with its tongue 
tied in a knot to the social media website Instagram, and used crude 
language to compare Shvedov to a dog in need of discipline. ``It is 
past time to call a veterinarian,'' the post said, ``to pull out 
[Shvedov's] wisdom teeth and to cut his tongue to standard size. Then, 
behold, he might even tell us something good and informative.''
    Shvedov filed a claim against Daudov with Russia's Investigative 
Committee, but to this day it remains unclear if Russian authorities 
investigated the threat.
    Separately, CPJ has documented two new journalism-related murders 
in Russia this year.
    Nikolai Andrushchenko, a veteran journalist who reported on 
corruption and police brutality, died on April 19, of injuries 
sustained when unknown assailants severely beat the 73-year-old.
    A sharp critic of Russian President Vladimir Putin known for his 
investigative reporting that alleged human rights abuses and 
corruption, Andrushchenko had suffered previous physical attacks, 
including one in November 2016 when several assailants attacked him at 
his doorstep.
    The journalist's colleagues told CPJ Russian authorities have not 
brought any of Andrushchenko's attackers to justice.
    In a separate case, Dmitry Popkov, chief editor of the independent 
local newspaper Ton-M in Siberia, was murdered on May 24 in Siberia. 
The journalist's body was found with five bullet wounds in his backyard 
in the city of Minusinsk, in the Siberian region of Krasnoyarsk Krai.
    The 42-year-old had helped found Ton-M in 2014, and was known for 
his investigative reports alleging abuse of power and corruption, as 
well as his criticism of officials of the ruling United Russia party.
    In an August 2016 editorial, Popkov wrote that Ton-M was 
``accustomed to being a pain in the neck for many officials who are 
trying to [silence us] in every possible way,'' through ``phone 
threats, intimidating searches, and interrogations.'' He added that the 
authorities were concerned about the ``corruption incidents that we 
reveal.''
    A colleague of Popkov's, Sergei Shishov from the Minusinsk 
independent news website Sreda24, said he believed Popkov was killed 
for his journalism, particularly for his latest reports about a federal 
parliamentary audit that revealed corruption in the local 
administration.
    Authorities launched an investigation into the killing in May, but 
have yet to report progress.
    CPJ has documented a case in which Russian security forces 
conducted a politically motivated raid on a journalist's home in 
Moscow. In the city of Svetogorsk, located near the Finnish border, 
security services detained three journalists who were trying to report.
    At least two other journalists are currently imprisoned in Russia 
for their reporting.
    In a separate case, Russian authorities continue to hold ethnic 
Uzbek journalist Khudoberdi Nurmatov, a regular contributor to Novaya 
Gazeta, better known by his pen name Ali Feruz.
    Nurmatov faces deportation to Uzbekistan, a country he fled in 2008 
after local security services tried to recruit him as an informant. If 
he returns, he is at risk of imprisonment and torture. Since 2016, 
Nurmatov has reported on sensitive subjects such as the plight of 
Central Asian migrant workers in Russia, and the December 2016 
presidential election in Uzbekistan for Novaya Gazeta.
    After Nurmatov's arrest on immigration charges in Moscow on August 
1, Novaya Gazeta reported that bailiffs beat, insulted, and shocked 
Nurmatov while bringing him to a detention center for foreign nationals 
in a Moscow suburb. Novaya Gazeta Editor-in-Chief Dmitry Muratov, who 
visited Nurmatov in the detention center on August 5, reported that the 
journalist had bruises on his back, was unable to eat for three days, 
and suffered from hypertension. CPJ, along with other rights defense 
organizations, has called on Russian authorities to release Nurmatov, 
and grant him legal residency status in the county.

Ukraine

    Many headlines have been devoted to the conflict between Ukrainian 
forces and Russian-backed separatists in Ukraine's east. However, I 
would like to draw your attention to the deteriorating press freedom 
situation in Ukraine.
    The high-profile murder of prominent Belarus-born journalist and 
CPJ International Press Freedom Award recipient Pavel Sheremet in 
downtown Kiev last year brought into relief a number of press freedom 
problems including the concerning tendency, encouraged by the 
government, to label media organizations as unpatriotic when they 
report critically on the government.
    CPJ covered this and other press freedom issues in our recent 
report, ``Justice Denied: Ukraine comes up empty in probe of Pavel 
Sheremet's murder,'' which found that the journalist's murder had taken 
place amid a divisive time in Ukraine.
    The year Sheremet was killed, CPJ documented an uptick in attacks 
and hostility against journalists who covered the government critically 
or questioned its handling of the conflict in the east. Nationalist 
groups verbally assaulted or threatened journalists reporting from the 
conflict region. In some instances, government and security officials, 
including Interior Minister Arsen Avakov, not only stood by, but 
cheered on the attackers.
    When a CPJ delegation visited Kiev this past July, we met with 
members of all three branches of government responsible for solving 
Sheremet's murder: The General Prosecutor's Office, the National 
Police, and the country's Security Service (SBU). We also met with 
President Petro Poroshenko.
    Despite stated assurances that Ukraine is committed to solving 
Sheremet's murder as a matter of honor, authorities reported no 
progress, no arrests, no prosecutions, and no leading motive for the 
killing.
    Sheremet's colleagues at the independent news website Ukrainska 
Pravda told us that the continued impunity in his murder has made they 
more cautious in their reporting. ``I fear for the safety of my 
colleagues ever since [Sheremet's death],'' Ukrainska Pravda editor-in-
chief Sevgil Musayeva told CPJ. ``After this murder, you want to be 
careful. I don't know how long this feeling will last.''
    Separately, Ukrainian authorities have cracked down on journalists 
and media outlets who, they have said, threaten Ukraine's national 
interests.
    In a September 18 public letter to President Poroshenko, CPJ 
expressed our deep concern at the SBU's recent actions that have 
infringed on press freedom in the country. CPJ documented at least 
seven separate incidents over the previous two months in which the SBU 
targeted newsrooms, and journalists based on accusations that appeared 
politically motivated, and in retaliation for critical reporting.
    In our letter, we mentioned the SBU's September 14 visit to 
Ukrainska Pravda during which they delivered a letter demanding the 
outlet take down an article critical of Ukrainian government policies. 
We also detailed three separate cases from August in which SBU agents 
expelled international journalists, and barred them from Ukraine for 
three years. In another case, also flagged in the letter, the SBU has 
detained a freelance journalist since August 1 who reported critically 
on Ukrainian politics, and now faces 15 years in prison on anti-state 
charges.
    In the letter we also mention the SBU's August 8 raid on a pro-
Russia news website. The security service then searched the homes of 
two of the site's journalists, and opened an investigation into its 
editor for alleged disclosure of state secrets.
    Lastly, we detailed the July 14 raid of the Kiev offices of Media 
Holding Vesti, which includes a radio station, a news website, and a 
newspaper. A military prosecutor and 80 masked and armed security 
officers searched the Vesti offices allegedly in search of evidence in 
a fraud investigation.
    We called on President Poroshenko to denounce the SBU's recent 
actions, and to reaffirm his commitment to ensuring journalists' safety 
to demonstrate his commitment to defending democratic institutions. He 
has yet to do so.

Azerbaijan

    In Azerbaijan, the autocratic President Ilham Aliyev has enjoyed 
wide-ranging powers since he inherited the post from his father in 
2003.
    During his time in office, Aliyev has consolidated power, and 
cracked down on independent and pro-opposition media outlets, non-
governmental organizations, and opposition activists. His harsh 
measures have pushed many into exile, while authorities have imprisoned 
some of Aliyev's most vocal critics.
    This year alone, Azerbaijan imprisoned six journalists in addition 
to the five it was already holding the year before.
    Disturbingly, Azerbaijan is now extending its justice code abroad.
    Belarussian authorities in February 2016 extradited Russian-Israeli 
blogger Aleksandr Lapshin to Azerbaijan for trial at the request of 
Baku. Azeri authorities then charged the journalist of traveling to, 
and reporting from the disputed Nagorno-Karabakh region, and for 
criticizing Azeri government policies. In July of this year, an Azeri 
court convicted Lapshin to three years in jail for illegally crossing 
the state border.
    Though he was eventually pardoned and released, following an 
international outcry, this is one of several cases in which Azeri 
authorities have attempted to quiet their critics abroad.
    In the most recent case, a French court held a hearing on September 
5 in a criminal defamation lawsuit against two French broadcast 
journalists over an investigative report they did two years ago.
    The report, which aired on a major French broadcaster, France-2, 
referred to Azerbaijan as a ``dictatorship.''
    In response, Azerbaijan filed charges against the reports' authors, 
Elise Lucet and Laurent Richard. Disconcertingly, the French justice 
ministry has complied, and went ahead with the prosecution. The next 
hearing in the journalists' case is scheduled for November 7.
    Most disturbing is the case of Afgan Mukhtarli, a freelance 
journalist who contributed to the Berlin-based, independent news 
outlet, Meydan TV, and the London-based Institute of War and Peace 
Reporting. Mukhtarli fled to Georgia from Azerbaijan in 2014 after 
receiving threats over his investigative reporting on corruption in 
Azerbaijan's Defense Ministry.
    On May 29 this year, Mukhtarli's wife reported him as missing. The 
journalist's lawyer Elchin Sadygov in Baku told CPJ that Mukhtarli had 
been abducted from Tbilisi and forcefully brought to Azerbaijan, CPJ 
documented at the time.
    Before he disappeared, Mukhtarli had been investigating the assets 
of Azerbaijan's first family in Georgia, the journalist's colleague 
Khadija Ismayilova told CPJ.
    Azeri authorities charged Mukhtarli with illegally crossing the 
border, and bringing in contraband, according to Sadygov, who said 
Mukhtarli told him the police planted ?10,000 ($11,200) in his pocket 
while he was unconscious.
    Georgia's Interior Ministry said in May that it was investigating 
the incident, according to media reports, but has made no further 
announcements.
    On September 22, Georgia's prosecutor's office offered a personal 
guard to Mustafayeva, after she said she was being followed in Tbilisi, 
the regional news website Kavkazsky Uzel reported.

Kyrgyzstan

    On October 15, Kyrgyzstan's voters go to the polls to elect their 
next president. But the incumbent, Almazbek Atambayev, has created a 
legacy of restriction and intolerance to criticism from the press.
    While Kyrgyzstan was once considered Central Asia's most liberal 
country, the Kyrgyz authorities have in recent years cracked down on 
independent journalists, including foreign media, and prosecuted 
individual reporters and media outlets on retaliatory charges. Despite 
a UN decision that ordered his release, Kyrgyz authorities have 
continued to hold a prominent journalist and human rights defender in 
prison.
    This past March alone, on at least three separate occasions, 
President Atambayev singled out several independent journalists for 
public rebuke, accused the media of ``pouring dirt on him,'' and 
accused the Kyrgyz service of the US broadcaster Radio Free Europe/
Radio Liberty of spreading gossip about him in order to ``keep its U.S. 
government funders happy.''
    These public statements by Kyrgyzstan's top leader were followed by 
legal action against some of the journalists and outlets Atambayev 
chastised. For instance, hours following the president's March 6 
speech, during which he criticized RFE/RL, the prosecutor general's 
office charged the broadcaster's Kyrgyz Service, known locally as 
Azattyk, with ``insulting the president.'' On March 13, prosecutors 
filed another suit against Azattyk and a separate lawsuit against Naryn 
Idinov, co-founder of the independent online news agency Zanoza, whom 
Atambayev had attacked in a public speech. Idinov and his outlet, 
Zanoza, were also sued for insulting the president.
    Despite a years-long campaign by international media rights and 
human rights defense organizations, including CPJ, to release an ethnic 
Uzbek journalist from Kyrgyzstan, who was sentenced to life in prison 
in September 2010 on charges widely recognized as politically 
motivated, Kyrgyzstan has continued to hold him in prison.
    On April 21, 2016, in a milestone decision, the U.N. Human Rights 
Committee called on Kyrgyzstan to immediately release the journalist, 
Azimjon Askarov, and quash his conviction after they reviewed a 
complaint filed in November 2012 by Askarov's lawyer and a team of 
experts from the New York-based Open Society Justice Initiative.
    Under its international obligations, particularly Article 2 of the 
International Covenant on Civil and Political Rights, Kyrgyzstan is 
obligated to make full reparation to the individual whose rights have 
been violated, and must take immediate steps to release the individual, 
and overturn the conviction. Kyrgyzstan is also obligated under its 
constitution to respect the U.N.'s findings. Yet, instead, on January 
24, 2017, the Chui Regional Court in Bishkek upheld the life sentence 
against Askarov on patently political charges of complicity in murder 
and inciting hatred. Askarov continues to sit in prison.

Conclusion

    The international community, including leaders in the United 
States, cannot afford to be indifferent to attacks on the press in 
Russia and the former Soviet bloc countries. The already embattled 
press corps in these states continue to look to Washington for 
solidarity and support. The United States must not abandon them, and 
must not forgo its role as a moral authority and bastion of freedom of 
the press and freedom of expression. When independent journalists are 
threatened, attacked, and silenced in the ways I outlined today, the 
rest of the world is left under-informed about sensitive issues of 
international interest such as corruption, human rights abuses, and 
ongoing conflicts.
    CPJ urges the U.S. Helsinki Commission and the House Freedom of the 
Press Caucus to make press freedom a priority, and take a firm stand 
against censorship as it is displayed in Russia, Ukraine, Azerbaijan, 
Kyrgyzstan, and other nations of the former Soviet bloc.
    Thank you for providing CPJ with the opportunity to address this 
pressing matter.


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  http://www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
